No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

RICHARD OLIVE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the Sixth Circuit Court of Appeals

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certifies that on
this 30th day of November, 2020, a copy of the Petition for Writ of Certiorari in the
above-entitled case was mailed first class, postage prepaid, to:
Office of the United States Attorney
Middle District of Tennessee
110 Ninth Avenue S.
Suite A-961
Nashville, Tennessee 37203

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Page 1 of 2

I further certify that all parties required to be served have been served.

Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

